IN THE SUPREME COURT OF THE UNITED STATES

BLANTON, DARYL R.
Petitioner
vs.

No:

20-1271

DENIS R. MCDONOUGH, SECRETARY OF VETERANS
AFFAIRS
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
April 09, 2021
cc:
KENNETH M. CARPENTER
CARPENTER, CHARTERED
1525 SOUTHWEST TOPEKA
BOULEVARD
PO BOX 2099
TOPEKA, KS 66601

